                                           CLOSEOUT FOR M95060022




 On 11 May 1995 an NSF program officer1 informed OIG of an electronic mail message he
 had received from the complainant2 who said he was concerned about the subject's3
 disposition of anthropologically important specimens. Specifically, the complainant alleged
 that the subject had, upon retiring, destroyed anthropologically important bones excavated in
 a foreign c o ~ n t r y . ~The complainant said the specimens had been excavated with NSF
 support. He said the subject allegedly asserted that the specimens were his property and that
 this was a violation of NSF's rules. The complainant said these specimens were important to
 future research in this area and the subject's actions had effectively halted further research.
 He provided OIG with a letter from the subject in which the subject provided another
 researcher at a different institution5with selected specimens and specified that they were on
 "permanent curatorial loan."

 The subject told OIG that the specimens had been an important source of archaeological
 information but that most were re-interred at the site of the excavation and only selected ones
 were studied further in the U.S. Several years ago, he returned the remainder to the foreign
 country's museum because he no longer needed them. He said a recent discovery in the U.S.
 had superseded his in importance. He provided a copy of his resume which showed that the
 specimens in question had been extensively studied, shared with other researchers, and
 described in the scientific literature. He said he was aware of the allegations and that they
 had surfaced after he and his long-time collaborator had "divorced" during a dispute about a
 proposal6 they jointly submitted to NSF in 1992. He recommended that OIG review the
 proposal and interview an NSF program manager7 familiar with the debate about the
 specimens.

 The 1992 NSF proposal described the original discovery of the specimens, stated that their
 excavation in the early 1970's had relied partially on NSF support, and described the
 scientists' plans for further excavation at the site of the original discovery. It stated that the


n
 '


a-t
     Dr.


    university,i-

                  -
                  the Directorate for
    * The scientist,1-.Dr
      The scientisth-(w


      The researcher i
      ~roposal-s
                      sa
                                     was an NSF program officer in the Division




                                       university,.-L
      The specimens were removed from the I

                                  entitled '
                                                         a retired member of-prbgram
                                                                                       h - : f o

                                                      is a faculty member in the Department -of




                                            in the Department o - t u n i v e r s i t y .

    complainant as the PI and the subject as the co-PI.
    ' The program manager. -si
                                                                                                   L- t a

                                                                                                            in the College of



                                                                                                            " and named the




                                                       Page 1 of 2
                            CLOSEOUT FOR M95060022
foreign country had no legislation governing archaeological research and only permission
from the land owner was required for excavation. The proposal said that the museum owns
the site from which the samples were excavated. The proposal also said that the museum
would be the "final repository of all excavated materials" and that only "materials requiring
specialized analysis will be carried to the U.S. After analysis in the U.S.[,] artifacts and
skeletal materials will be returned to [the foreign country] for final deposition; the
[specimens] probably will be reburied at [the site]. Artifacts excavated at [the site] in the
early 1970s were returned to [the foreign country] in the summer of 1980 . . . ." The proposal
contained letters of endorsement from officials in the foreign country that stipulated that
newly excavated materials would be returned to that country.

The NSF program manager said the subject and the complainant had not gotten along for
some time and, because they could not resolve their differences, they had withdrawn the
1992 proposal, while it was in the process of being funded by NSF. He said no matter what
the subject's private motivation for returning the specimens, the subject's efforts to re-inter
human remains after extensive scientific investigation would currently be viewed as
acceptable by the scientific community.

In a subsequent conversation with the complainant OIG learned that the museum had
received the subject's shipment of specimens and had then shipped them to the complainant.
The complainant currently has these specimens as well as specimens he had not returned to
the subject. The complainant said the subject's shipment of specimens to the researcher at the
different institution remain at that institution.

OIG determined that, over 20 years ago, NSF provided support for the research effort that
resulted in the collection of the specimens in question. The specimens have been extensively
studied by a number of scientists, and described in the published scientific literature.
Subsequently, the subject either returned the specimens to the foreign country or allowed
specimens he had provided to other scientists to remain in those scientists' laboratories.

NSF, through it's policy on data sharing (See the Grant General Conditions, Article 36),
encourages scientists to share "within a reasonable time, the data, samples, physical
collections and other supporting materials created or gathered in the course of the work."
The evidence supports the conclusion that the subject shared the specimens he collected with
a number of scientists, published data in the open scientific literature, and subsequently
disposed of them in acceptable manners. OIG concluded that the complainant's allegation
was without substance. This inquiry is closed and no further action will be taken.


cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                     Page 2 of 2
